<html>
<title> - RETIREMENT SECURITY AND CORPORATE RESPONSIBILITY</title>
<body><pre>[Senate Hearing 107-767]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-767
 
            RETIREMENT SECURITY AND CORPORATE RESPONSIBILITY
=======================================================================


                             FIELD HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            INDIANAPOLIS, IN

                               __________

                             AUGUST 8, 2002

                               __________

                           Serial No. 107-31

         Printed for the use of the Special Committee on Aging












                           U.S. GOVERNMENT PRINTING OFFICE
82-917                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                       SPECIAL COMMITTEE ON AGING

                  JOHN B. BREAUX, Louisiana, Chairman
HARRY REID, Nevada                   LARRY CRAIG, Idaho, Ranking Member
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
JAMES M. JEFFORDS, Vermont           RICHARD SHELBY, Alabama
RUSSELL D. FEINGOLD, Wisconsin       RICK SANTORUM, Pennsylvania
RON WYDEN, Oregon                    SUSAN COLLINS, Maine
BLANCHE L. LINCOLN, Arkansas         MIKE ENZI, Wyoming
EVAN BAYH, Indiana                   TIM HUTCHINSON, Arkansas
THOMAS R. CARPER, Delaware           JOHN ENSIGN, Nevada
DEBBIE STABENOW, Michigan            CHUCK HAGEL, Nebraska
JEAN CARNAHAN, Missouri              GORDON SMITH, Oregon
                    Michelle Easton, Staff Director
               Lupe Wissel, Ranking Member Staff Director

                                  (ii)














                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Evan Bayh...........................     1

                                Panel I

Keith Taylor, Retiree............................................     5
William Christopher, Executive Director, Indiana Teachers 
  Retirement Fund................................................    13
Chuck Leven, Member, AARP Board of Directors.....................    24
Elisse Walter, Executive Vice President, Regulatory Policy and 
  Programs, NASD.................................................    32

                                 (iii)











            RETIREMENT SECURITY AND CORPORATE RESPONSIBILITY

                              ----------                              


                        THURSDAY, AUGUST 8, 2002

                                       U.S. Senate,
                                Special Committee on Aging,
                                                   Indianapolis, IN
    The committee met, pursuant to notice, at 2 p.m., at the 
Senior Center, Indiana State Fairgrounds, Indianapolis, IN, 
Hon. Evan Bayh presiding.
    Present: Senator Evan Bayh

             OPENING STATEMENT OF SENATOR EVAN BAYH

    Senator Bayh. I want to thank all of you for coming and 
call this meeting of the Senate Special Committee on Aging to 
Order.
    I would like to thank everybody at the Indiana State Fair 
for their cooperation in bringing us together now for the third 
straight year on Senior Day here at the Fair. I want to thank 
Bill Stinson and everybody else here at the Fair who have been 
so, so helpful.
    I would like to thank all of you. I know that there are 
other things that you could be doing on a beautiful day like 
this. The fact that you would be here to help us focus on 
making corporations more responsible and accounting more 
accurate to protect the investments of our senior citizens I 
think is very, very significant.
    I am particularly glad to be here today. If I speak a 
little less clearly than normal, I hope you will forgive me. I 
was in the dentist's chair for 2 hours this morning, so I am 
particularly glad to be out here and to be with you.
    I would like to take this one moment of personal privilege, 
if I could. The three most important members of my family are 
with me today at the Indiana State Fair, and that is my wife, 
Susan, and my sons, Nicholas and Beau. So I would like to 
introduce all of you.
    Stand up and wave, fellows.
    I promised them as soon as I introduced them to the crowd 
they could go off and get some cotton candy or go on the rides. 
So fellows, you are released as soon as your mother says that 
is OK.
    All right. Have fun.
    Today's hearing is going to focus on the recent corporate 
financial scandals and their impacts on seniors. Most 
importantly, what can be done to prevent the kind of losses to 
senior citizens and other investors that we have seen in recent 
months. Millions of Americans were adversely impacted, but 
seniors were disproportionately adversely impacted. 
Shareholders, employees, and retirees have lost billions of 
hard-earned dollars. Uncertainty about financial scandals has 
deepened the retreat of our financial markets, causing further 
losses, and it has reduced investments, both from at home and 
abroad, that would make our economy stronger. So we need to 
remove this uncertainty, because it is important to the overall 
health of our economy.
    It has been tragic for everyone, but for seniors, they have 
been particularly hard-hit. The statistics--and I think Dr. 
Christopher may--or the gentleman, rather, from the AARP may 
discuss these in just a few moments--62 percent of our seniors 
now rely upon investment income to supplement their standard of 
living in retirement, and 43 percent of our senior citizens 
rely in whole or in part on pension income. Obviously 
investments and pension funds alike have been hurt by the 
recent corporate scandals. I think Dr. Christopher may have 
some testimony about how Indiana has been affected.
    Although the worst of the abuses have been located in other 
States, Hoosiers have also been affected. I believe that the 
Teachers Retirement Fund has lost about $25 million as a result 
of investments in Worldcom and things of that nature, and the 
Public Employees Retirement Fund for state employees has lost a 
further $66 million. Of course that is on top of the private 
losses that individual investors have suffered in 401(k)s and 
other private investments. So losses to Hoosiers have been real 
and significant as a result of these corporate frauds and 
scandals.
    To prevent further abuses Congress has acted quickly, and 
the President just recently signed into law the Corporate and 
Auditing Accountability Act. It was bipartisan. The vote in the 
U.S. Senate was unanimous. That does not happen very often, and 
that shows you how strongly people are interested in doing 
something about this. This Act is going to do things to try to 
make sure that these sorts of financial frauds and shenanigans 
never happen again.
    First we want to ensure that the auditors, who are supposed 
to be the independent watchdogs of our publicly held companies, 
are truly independent. There is going to be a new Auditing 
Standards Board created. It is going to be completely 
independent of the auditing industry, and that is to make sure 
that the standards and the auditors' conduct is in the best 
interests of shareholders and public citizens like those of you 
here, and not just in the best interests of the auditing 
profession itself. There will be limits placed upon the 
conflicts of interest that exist in the auditing profession, 
where auditors make substantial amounts of money from the 
companies in other services that they are also providing audit 
services to.
    This legislation will ensure management accountability on 
the part of CEOs and chief financial officers and others who 
are running America's largest corporations. CEOs and chief 
financial officers will be required to personally attest to the 
validity of financial statements, with strong criminal 
penalties, including jail time, for those who knowingly sign 
false reports to America's shareholders.
    Self-dealing, like getting large loans from the company, 
from those of you who are shareholders, giving your money to 
corporate officers and directors, that is prohibited except in 
a very, very few limited instances.
    Top officials in companies who have cashed out and taken 
their money and run, only to then restate financial earnings 
and other statements to--in other words, they cashed out at the 
top, then said, ``Never mind'' and restated their earnings, 
saying that all the facts were not exactly so--they are going 
to be required to disgorge those profits, those earnings, and 
give them back to the company. So there is no more taking the 
money and running in corporate America.
    Executives are going to be subject to the same kind of 
severe penalties that other employees are for things like 
securities fraud, which is a new crime created in this 
legislation. It actually was not a crime in the United States 
to engage in securities fraud; the prosecutors and law-
enforcement authorities had to pursue these individuals who had 
ripped off all this money using other statutes, but now it is a 
specific crime to engage in securities frauds.
    There is going to be tougher enforcement, with real teeth. 
The Securities & Exchange Commission is going to have its 
budget substantially increased, to hire more investigators, and 
so that they can review very thoroughly, on an annual basis, 
the financial reports that are filed with the Securities & 
Exchange Commission.
    There are whistle-blower protections, so that when 
individuals like this woman in Enron who came forward, stepped 
forward to blow the whistle on fraud and other abuse in large 
companies, they will be protected from retribution by those 
upon who they are blowing the whistles.
    We are going to hear about all of this from four witnesses 
today, on two panels.
    Our first witness will be Keith Taylor. Where is Keith?
    Keith, thank you for joining us today.
    Mr. Taylor is going to share his first-hand experience. 
Keith, I understand unfortunately you have lost about two 
thirds of your investment income.
    I am going to get to the panels in just one minute.
    He is going to tell us how that has impacted his life and 
share with us some thoughts about what we can do and what the 
impact of the new legislation may mean, in terms of protecting 
people's retirement security. I appreciate your willingness, 
Keith, to share with us your personal experience in this 
regard, so that others will not be similarly impacted in the 
future.
    Also testifying will be Dr. Christopher, who I referred to 
earlier. Bill is the Executive Director of the Indiana State 
Teachers Retirement Fund. As I mentioned, the fund has suffered 
some losses as a result of these financial frauds, and 
obviously that is the kind of thing that we do not want to see 
teachers have to suffer, and gives us a strong interest in 
preventing these kinds of frauds.
    Catherine is showing the chart here. OK.
    Mr. Chuck Leven--Chuck, did I pronounce that correctly? 
Good. Thank you.
    Chuck Leven, a member of AARP's Board of Directors, is here 
today to explain some of the work that has been done to protect 
seniors and how the Corporate and Auditing Accountability Act 
will help to stop Worldcoms and other situations like Enron, 
Adelphia, and others from recurring in the future.
    Chuck, I want to thank you and AARP; you have been great 
from the beginning, supporting this accountability legislation, 
and your track record in terms of protecting Indiana's and the 
rest of America's seniors is exemplary, so I want to thank you 
for your presence today, and we are looking forward to hearing 
from you about a host of things, including what our seniors can 
do to help protect their savings.
    I think we have both AARP's toll-free number and their 
website here, that you can contact for further information 
about what to do if you think you have been the victim of 
financial fraud, and some tips on what to do to protect your 
savings.
    I believe we have handed out these yellow packets. For 
those of you who have not gotten a yellow packet, we are 
handing them out. They also include information--for example, 
here are the top ten investment tips for seniors, how to 
protect your retirement savings. There is other good 
information in here about the basics of investing in the stock 
market, other things like that to help protect retirement 
savings and to tell you where to go if you think you have been 
the subject of fraud or investment abuse.
    So Chuck, thank you for being with us today.
    Our final witness will be Miss Elisse Walter. Where is 
Elisse?
    Thank you for coming today. Appreciate your making a trip 
here to the Indiana State Fair.
    Miss Walter is the Executive Vice President for regulatory 
policy and programs at the National Association of Securities 
Dealers, the NASD.
    I would like to thank all of you for being here today. We 
are looking forward to hearing from our witnesses.
    There are cards included in the packets, like this. If you 
have questions for any of our panelists, please feel free to 
pass out these cards. At the end of the panels, I am going to 
ask that the cards be collected at the end of the first panel 
and at the end of the second panel. They will be collected. We 
are going to get to as many as possible. For those of you whose 
questions we do not have time to ask here today, we are going 
to get you a written response. I think there is a place here 
for your address. Please include your address, so that if a 
panelist cannot give you an oral answer today, we will give you 
a written reply, so that every question will be responded to. 
So, for those of you who have questions, here are the cards. 
Please fill them out. We will collect them at the end of each 
and every panel.
    The final thing I would say--and I am going to ask our 
first panelists to come up--is this: This is a very important 
topic. It affects the life savings of millions and millions of 
American seniors, in 401(k)s and other retirement vehicles. It 
affects the health and wellbeing of our national economy, 
because when there is uncertainty about our financial 
information people are less willing to invest, investors from 
abroad are less willing to put their money into the United 
States America, and this harms us in a lot of ways.
    But folks, at the end of the day what this is about more 
than anything else are our values as a country, the kind of 
behavior we are willing to tolerate and the kind of behavior 
that we will not tolerate. I hope that with the passage of this 
new Accounting Responsibility Act we are sending a loud and 
clear message to corporate America, but also to people in 
government and other walks of life, that the United States of 
America is going to continue to be the land of opportunity, not 
based upon fraud or deceit or financial chicanery, but upon 
hard work and ability and thrift and those basic virtues that 
have always made this country great. That is what we are here 
today to endorse and protect, and in the final analysis that is 
what it is going to take to have better accounting standards 
for the large companies and others across America.
    So thank you for coming. Let us ask the first panel to come 
up. Will Dr. Christopher and Keith please come up? We are 
looking forward to hearing from you.
    Again, ladies and gentlemen, thank you for your time today. 
I appreciate your presence. Let us get to the first panel.
    Keith, we are going to start with you. Again, I want to 
thank you for your willingness to share your personal 
experience with us.
    Dr. Christopher, if neither you or Keith will be insulted, 
I am going to take my coat off. So you feel free to do the 
same.
    Mr. Taylor. Can I leave my hat on?
    Senator Bayh. You can leave your hat on, and be proud of 
it.
    Pull the microphone forward, so we can hear you.
    Mr. Taylor. OK.
    Yes.
    Senator Bayh. Mr. Taylor, please. The floor is yours.

               STATEMENT OF KEITH TAYLOR, RETIREE

    Mr. Taylor. My name is Keith Taylor. I was born and raised 
in Indianapolis, IN. I quit school when I was 16 years old, to 
go to work. I worked hard for the next 50 years, and then I 
retired. That was about 4 years ago.
    I do not know much about business, and my only claim to 
fame is that all my life I have worked very hard. I worked a 
lot of hours, and I saved a lot of money--maybe not a lot----
but some.
    Well, I saved a lot of money, more or less. When I was 18, 
you know, I got a great opportunity from who I consider a great 
man, Mr. Carl Gruenman, owner of Universal Tool & Engineering. 
He gave me my first break, and from then on I worked mostly 60 
and 80 hours a week as a toolmaker.
    For most of my life I had two jobs: I worked for Ford Motor 
Company, and I had a small machine shop in my garage. I saved 
money I made, and I invested it. I thought I had a solid amount 
of money for my retirement for me and my wife.
    My wife and I were going to travel. We cannot necessarily 
do that now. In the last year I have lost two thirds of my 
retirement investments because of the wrongdoings by the CEOs, 
and because of the lack of confidence in business leaders in 
the market. The entire market is suffering.
    I think that most of my stock will come back, but there are 
several that were my pride and joy, that will not because of 
the shenanigans of the CEOs and the board of directors. I just 
thank God each day that I have my Social Security and my Ford 
UAW pension. [Applause.]
    The recent events have taught me how important Social 
Security is and how it needs to be available for everyone. 
Social Security has to remain stable and secure, and we should 
not make any changes to privatize it. [Applause.]
    I never dreamed I would be in the situation I am today. 
Like I said, I worked hard and always played by the rules. What 
makes me mad is that every day you see where these corrupt CEOs 
have ripped off millions of dollars from innocent people. Do 
you know where that money comes from? It comes from people like 
you and me, who invested it, and who had faith and trust in 
their CEOs.
    When you buy into a company, you are hiring the CEO, and 
the board of directors, to look after your investment. Not just 
my investment, but every investor's money. They should do their 
job, not just for the enhancement of the corporate elite and 
for their own CEO salary.
    I just read somewhere where CEO salaries have jumped 
something like 500 hundred times that of the average employees. 
Ten years ago they were at something like 50 times greater; and 
that was a lot. Are they really worth millions of dollars a 
year? Do they really need that much? They should be putting 
some of that money back into the company, so that the 
shareholders can benefit. It is a sad commentary on our culture 
and society to have people in very high positions that are 
interested only in their personal gain rather than the 
fulfillment of their sworn obligations.
    These are people who are supposed to be running the 
company. The board of directors are hand-picked by the CEO's. 
They are hand-packed, too. Sorry about that, secretary.
    Senator Bayh. Tell it like it is, Keith. [Laughter.]
    Mr. Taylor. The CEO dictates to the board what his salary 
or severance pay should be, and the board just rubber-stamps 
it. The basic stockholder, like me, does not really have a 
choice at all. We can vote for, abstain, or vote against the 
board, but we cannot nominate them. As long as the CEOs have 
control of the board of directors, there will be no check on 
the CEOs. What these CEOs have done is like shooting fish in a 
rain barrel. You can get a lot of fish this way, but it is not 
very sportsmanlike.
    Instead, they rip off people like me. We had faith, trust, 
and confidence in them, we should not have had.
    I do have faith and confidence in my Senators and my 
country. Indiana has two of the greatest Senators around. I 
really believe that honestly. I know, Senator Bayh, if someone 
with real integrity was CEO of the companies that I invested in 
this would not have happened. I wish you were the CEO of one of 
the companies in particular I invested in.
    Senator Bayh, I want to thank you for your work on the 
Accounting Reform bill. That law will be very helpful in 
protecting investors like me and putting corporate criminals 
behind bars. [Applause.]
    Yes, behind bars; that is where they belong.
    Before, high-level crooks would get fined millions of 
dollars, but that does not help. Money is never going to be a 
deterrent to the higher-level crooks. They have insurance to 
cover themselves, insurance me and other investors helped buy 
for them. Jail time is different. You cannot get insurance for 
your jail time, and you cannot pay somebody to go to jail, to 
do jail time for you. Jail is a real deterrent. If I am a CEO 
with a big house in Florida, being in the Big House, the jail, 
is not going to allow me to enjoy all my money. Jail will get 
the attention of high-level crooks.
    So let me say thank you again, Senator, for passing that 
bill. I really appreciate it.
    I have a personal plea I would like to leave you all with: 
Our society needs to restore its ethics and its conscience. 
People need to remember to do the right thing, the moral thing. 
All the laws in the world will not make a difference if people 
do not change their behavior. We have the greatest country in 
the world, the greatest economy. What has happened is, CEOs 
thought their behavior was OK. We cannot go on letting people 
get away with lying, cheating, and stealing.
    Thank you for letting me testify today. God bless the two 
great Senators from Indiana, and finally, God bless U.S.A.
    [The prepared statement of Mr. Taylor follows:]

    [GRAPHIC] [TIFF OMITTED] 82917.001
    
    [GRAPHIC] [TIFF OMITTED] 82917.002
    
    [GRAPHIC] [TIFF OMITTED] 82917.003
    
    [GRAPHIC] [TIFF OMITTED] 82917.004
    
    [GRAPHIC] [TIFF OMITTED] 82917.005
    
    Senator Bayh. Thank you very much, Mr. Taylor.
    Dr. Christopher.

 STATEMENT OF WILLIAM CHRISTOPHER, EXECUTIVE DIRECTOR, INDIANA 
                    TEACHERS RETIREMENT FUND

    Dr. Christopher. Senator Bayh; ladies and gentlemen:
    I am Bill Christopher. I am the Executive Director of the 
Indiana Teachers Retirement Fund. I am also an Educator and 
Administrator. I have been Director for almost 4 years, but I 
have been a member of the fund for over 42 years. It does not 
seem that long, but it has been. The Executive Director of the 
Teachers Retirement Fund is the Chief Executive Officer of the 
fund.
    Senator Bayh, I thank you for inviting the Teachers 
Retirement Fund to testify on behalf of our membership. Your 
leadership for our State and Nation are much appreciated, and 
respected. I feel especially fortunate in having worked with 
you in the past, and I appreciate your guidance and help in my 
past work, and look forward to working together on behalf of 
Indiana citizens, especially teachers, in the future.
    At the Teachers Retirement Fund we are fortunate to have a 
board of trustees of five very supportive and involved former 
educators and private citizens of our State, who are very 
knowledgeable about pension systems and investments. The 
trustees freely give of their time in helping to improve our 
fund.
    Our membership consists of all of the licensed public 
school teachers and administrators in Indiana. We also serve as 
the pension fund for a large number of college professors and 
administrators. For the first time this year, we are currently 
enrolling teachers and administrators of the newly formed 
charter schools.
    The Indiana Teachers Retirement Fund has over 114,000 
members. Most are citizens of Indiana, or they live somewhere 
in the United States. We have a very small number who currently 
are living in foreign countries. Almost 34,000 of that number 
are currently living as retired people, receiving monthly 
retirement checks. About 100 of these retired members left 
teaching before 1950, if you can imagine. We have one who 
retired in 1939. 75,650 are active teachers or administrators. 
Of the active teachers, about 10,000 are over the age of 60, 
and have been in education for over 35 years. Thirty are past 
the age of 75 and still teaching. Essentially, we have a 
working relationship with Indiana teachers and educators that 
can span over a period of 75 years.
    The Teachers Retirement Fund manages about $6 billion in 
assets on behalf of our membership. We continually rank in the 
upper quartile on our investments when compared with other 
pension funds. At the end of the last calendar year we were the 
only fund of our group of 65 plans that had a positive year-end 
earnings rate. We are an independent body corporate and 
politic, with an independent board of trustees.
    Many of our retired members are actively engaged, serving 
as leaders and important members of their local communities. 
They often continue their participation in the education of 
young people, and in many, many other community service 
organizations. Of the 34,000 retired members, we have 44 who 
are over 100 years old; 37 survivors of former teachers are 
receiving pensions that are also above the century mark. If you 
can believe it, we have four members who are receiving pensions 
who are over the age of 106.
    Indiana is unique of the teacher retirement funds of the 
country. Our uniqueness comes from the fact that teachers in 
Indiana have the opportunity to make investment choices with 
money contributed to their annuity savings account. This makes 
our retirement system a blend of the traditional defined-
benefit plan, or, as most States support, a plan that consists 
of the basic pension and a defined-benefit plan.
    This has worked well for our teachers. They have the 
stability of the more traditional pension and the opportunity 
for participation in a growing economy with the annuity savings 
portion of their retirement program. Teachers can direct the 
investment of their annuity savings portion of their retirement 
plan as they so choose. Teachers have a choice of five 
investment options, including the Guarantee Fund, currently 
paying 7 percent; an S&P 500 account; small-cap investments; an 
international fund; and a domestic bond fund. Indiana teachers 
are vitally interested in their annuity savings account and the 
investment of those accounts.
    Most recently, teachers have expressed their concern about 
the highly reported losses from Enron, Worldcom, Q-West, and 
others. This fund lost about $37 million. Now I have to quickly 
add that that is less than one tenth of a percent of our total 
holdings. We are troubled with the reasons underlying these 
losses.
    Senator Bayh, we really appreciate your leadership and the 
actions of Congress for the review and completion of 
legislation concerning accounting and other regulatory rules 
and regulations.
    When we communicate with our members, we continually remind 
them that, although any short-term loss is not good, we are, 
however, in long-term investments. Losses and gains are part of 
the normal cycle of investment. Actuaries account for our 
investments over a 40-year period. I suppose the argument could 
be made that we invest on an infinite timeline. This is 
especially true when we have people beginning their investment 
in our fund as teachers at the age of 21 and currently retiring 
at an average age of 58, and some living past 106.
    The message to our members is that we are unhappy with any 
loss in these equities markets, but because of our long-term 
investments and the relatively small percentage of the loss, we 
will recover. We have an extensive asset allocation plan that 
contemplates losses and gains.
    Senator Bayh, your leadership in developing the new 
legislation that addresses accounting fraud is appropriate, and 
certainly was needed. Especially welcome is the establishment 
of the Federal oversight board for the accounting industry. By 
restricting the nonaudit services that accounting firms may 
provide to clients, the statute strengthens the concept of an 
independent audit. Your handling of stock analyst conflicts of 
interest is certainly positive, considering the recent 
disclosures of such conflicts. Major changes in severity and 
length of penalties strengthen the concept of accountability, 
and offers renewed faith in financial markets. By supporting 
the SEC with greater funding authority, the Congress has given 
that regulation needed to bring back a greater faith in our 
economy. The bottom line, however, is defined by having people 
with integrity and a sense of basic honesty heading companies 
and systems invested in by pension funds and by individuals.
    We are pleased that we are able to talk with you today. 
Thank you for having us here and being able to participate in 
the hearing. I would be pleased to answer whatever questions 
that anyone might have.
    [The prepared statement of Mr. Christopher follows:]


    [GRAPHIC] [TIFF OMITTED] 82917.006
    
    [GRAPHIC] [TIFF OMITTED] 82917.007
    
    [GRAPHIC] [TIFF OMITTED] 82917.008
    
    [GRAPHIC] [TIFF OMITTED] 82917.009
    
    Senator Bayh. Thank you very much, Dr. Christopher.
    I neglected to mention, but I am glad that we had the 
opportunity to work together for several years when I was 
privileged to be the Governor of our State. Bill, I am very 
grateful to you for you continuing your public service and 
watching out for retirement savings of our teachers. I think 
they are in very capable hands. Thank you.
    Now I misspoke when I mentioned earlier, what we are going 
to do here is, I am going to have some questions for Keith and 
Bill, and then we are going to have the second panel come up, 
and then we are going to call for your questions so we can ask 
questions of both panels simultaneously, so a couple of 
questions from me for each one of you, and then we will bring 
the second panel up, I will ask a couple questions of them, and 
then we are going to have the audience questions for all of us.
    Keith, let me start by asking you something: There may be 
other people in the audience here today who have had your 
experience with the losses that you have suffered. I know there 
are others at home. What advice would you have for people here 
today? What, if anything, can they do to get through a 
situation like this or avoid it, and how much will it be of 
benefit to folks like you in the future to know that those 
financial statements are more accurate when you see them about 
companies that you invest in?
    Mr. Taylor. Senator, I wish I had some good advice. But the 
bottom line is, you know, even doing your homework and studying 
and looking at past performance, if there is somebody out there 
who is flat-out lying to you with the intention of cheating 
you, chances are, if you are a little individual investor, that 
guy is going to get the job done.
    One of my particular stocks that really hurt me personally, 
because I had so much faith in it and it was such a good 
company for so long, I just saw the handwriting on the wall, 
but I just could not believe what was happening was going to 
happen. But it did.
    The thing that can prevent this from coming about again is 
just what you have done, Senator: You put something in there 
that I feel is really going to get their attention. That is 
going behind bars. Because I do not care how much money you 
have got on the outside, if you are looking at jail time, I 
think these guys are going to give some serious thought before 
they hoodwink, swindle, lie, cheat, and steal from people like 
me.
    Senator Bayh. I think you are right, Keith. That is why we 
put stiff jail time in there.
    You know, if you hold up a five-and-dime and you take a 
couple hundred dollars, you end up going to jail, but in the 
past if you have stolen millions and millions of dollars, very 
often you have not. That is just not right. So I hope it will 
get their attention. I think you will see that some of these 
individuals are going to be living in public housing for quite 
some time. But it is not going to be a country club.
    You mentioned something else that caught my attention. Now, 
you have got a pension from Ford; right?
    Mr. Taylor. Yes, sir.
    Senator Bayh. You have worked hard, and so you have been 
able to put a little bit of money away, and that has been 
taking a beating in the stock market. I assume you are also 
qualified for Social Security.
    Mr. Taylor. Yes, sir.
    Senator Bayh. Now, a lot of our seniors do not have a 
pension, and they have been able to save a little but not a 
lot, and so they rely really for a preponderance of their 
retirement income on Social Security. What kind of shape do you 
suppose they would be in if they had invested that money in the 
stock market, the last few years? I notice that you did not 
seem to think that was a good idea.
    Mr. Taylor. Senator Bayh, I love Social Security; I always 
did. My parents were very, very fortunate to have it when they 
retired. Thank God I have got it, my wife and I, when we 
retired. It scares me, when reading the paper about people of 
high level want to diverse Social Security and let the 
individual invest their own money. Even people I worked with 
for the last 10, 15 years, because the stock market has been on 
a roll, everybody has this, ``Gosh, if I could invest my Social 
Security money, look at what I would have!'' You read in the 
paper where the advocates of changing Social Security as it is 
say, ``Look what you could have if you only invested it and if 
you only had the right stocks!'' Yes, right there is the key 
word, though: When you invest in Social Security, you are 
investing in the U.S. Government. I have faith and confidence 
the U.S. Government is always going to be there; Social 
Security is always going to be here; you are always going to 
have a pension come available from Social Security.
    But if you are out there betting on the stock market, you 
just might as well go down to the racetrack and bet too. You 
may or you may not have anything when you get to that 
retirement age. I am thankful that Social Security was brought 
about, and thankful for having it like it is.
    I think, if we ever let people take part of their Social 
Security and invest it individually, what is going to happen 
when these people, lose all of their pension, they lose all of 
their investments--what are we going to do? We are going to 
have to put them on welfare.
    Senator Bayh. You are afraid that we would take the 
``security'' out of Social Security if we changed it.
    Mr. Taylor. That is right.
    Senator Bayh. Well, thank you.
    I assume that, like a lot of seniors, if they do not have a 
pension or much savings, that if their Social Security went 
down the drain, you would be in pretty tough straits; right?
    Mr. Taylor. That is right.
    Senator Bayh. Well, thank you very much, Keith. I do very 
much appreciate your being here, your sharing your experience 
with us, and your kind words about me.
    Mr. Taylor. Senator, I certainly thank you.
    I tell the ladies that helped me that, you know, I am 70 
years old; first time I have ever given a public speech. So----
    Senator Bayh. I think you did pretty well! Do you not think 
so? [Applause.]
    Seventy years young, Keith.
    Bill, a couple questions for you, Bill, and we will get the 
second panel up here.
    I do not know how many of you were paying attention when 
Bill was speaking, but of the 65 retirement funds that are in 
the same category as the Indiana Teachers Retirement Fund, our 
Teachers Retirement Fund is the only one that had a positive 
return over the last year. The only one. They consistently rank 
in the top quartile of all of the pension funds against which 
they are compared.
    My question to you, Bill, is, with all the turbulence in 
the markets--and I think one of our next panelists is going to 
point out the S&P 500 is down 40 percent or thereabouts over 
the last couple of years--how did you do this over the last 
year? Why were you the only one that had a positive return? 
What can some of our seniors who are here today learn about 
managing their own retirement savings based upon your 
performance?
    Dr. Christopher. Well, first of all, as you recall, since 
you were Governor at the time, it was not until 1996 and 
thereafter that we were able to invest in the equities markets. 
We had large investments in bond funds and in the fixed-income 
funds. Today we still have large investments in fixed-income 
funds. This is because it takes a long period of time to 
transfer everything over into an asset allocation plan that 
would include a lot of equities.
    Senator Bayh. So one of the lessons we have learned is what 
they call dollar-cost averaging----
    Dr. Christopher. That is right.
    Senator Bayh [continuing]. Where you do not put all your 
money into one investment at one point in time; you put it in 
over a longer period of time and you kind of take the--some of 
the ups and downs out the system?
    Dr. Christopher. Absolutely. My dad said, ``You do not put 
all your eggs in one basket,'' and that is certainly true in 
equity. You do not put it all in one basket; you need to have a 
very good asset allocation plan.
    In fact they tell us that about 92 percent of any earnings 
that you can make on your investments would have to be because 
you do have an asset allocation that offsets the ups and the 
downs.
    Senator Bayh. So that is the second lesson. The first is 
with regard to timing: You put it in over a longer period time, 
to take some of the ups and downs out. The second is asset 
allocation?
    Dr. Christopher. That is right.
    Senator Bayh. So that even if you are putting it in over a 
longer period of time, you do not just put it all into stocks 
or one different kind of--not one kind of investment vehicle--
--
    Dr. Christopher. That is right.
    Senator Bayh [continuing]. You spread it around, and that 
helps diversify.
    So dollar-cost averaging, diversification----
    Dr. Christopher. That is----
    Senator Bayh. Anything else you might share with the folks 
here today? Besides great management, the great leadership----
    Dr. Christopher. No, I agree----
    No, actually I think it is in paying attention. You have 
got to really pay attention. It is not a job for the weak at 
heart; you have to pay attention on a day-to-day basis, what is 
going on, and make sure your assets are continuing----
    Senator Bayh. So, an informed investor, having people here 
look at the sheet from AARP and elsewhere to learn about how to 
evaluate their investments in companies, that really----
    You know, we can pass the best laws in the world, and we 
are trying, we are going to throw people in jail when they 
break the law, but as you point out, at the end of the day 
there is no substitute for honesty in the management of some of 
these companies. Bill, as you are pointing out, really our best 
defense is an informed consumer. As Keith pointed out, the most 
informed consumer, if they give you bogus numbers it is kind of 
hard to manage your investments, but as best you can you have 
got to try and stay on top of it.
    Dr. Christopher. Yes. I think that is--that also goes back 
and points out to everyone the importance of the legislation 
which was just passed, where we do have independent audits, 
where we are demanding that, where you have offered the 
leadership to make sure that we do have independent auditors, 
that we are--there are jail terms for not doing things in an 
appropriate and responsible manner, and I think that is really 
important.
    Senator Bayh. Bill, one final question for you, and we will 
get our next panel up here.
    Keith mentioned something, and I am sure it is frustrating 
to many people in the audience today and elsewhere across our 
State and country. You know, Keith felt a little powerless, he 
said, where the CEOs picked the board members and they kind of, 
you know, treat the CEO well in exchange for that, and he kind 
of just said, ``Well, we cannot nominate members of the board 
and that kind of thing.''
    But one thing I have noticed that is going on, Keith, 
although it is hard for a single investor to have much impact, 
we are getting a lot more what they call ``institutional 
shareholder activism.'' So your pension fund at Ford or the 
Indiana Teachers Retirement Fund are getting more active in 
scrutinizing management and saying, ``Look, we are just not 
going to invest in certain kind of--in companies if you do not 
have certain kinds of rules and if you do not live by them.''
    So, Bill, I would like to ask you, are you at the Teachers 
Retirement Fund thinking about having standards that you will 
insist that companies abide by in terms of accounting standards 
and, you know, CEO and board relationships and things like that 
before we will invest our money in them?
    Dr. Christopher. We have----
    Senator Bayh. Because, Keith, while your voice may not be 
heard, Ford Pension's voice will be heard, or Mr. Christopher's 
voice might be heard because he represents billions of dollars.
    Dr. Christopher. One of the really interesting things is 
that in the last few weeks we sent letters to all of our 
investment managers--we have about 32 companies that invest on 
our behalf--and we asked them to really look carefully at the 
stocks they buy and look at the leadership that is there and to 
look at what is going on in the corporate governance of those 
funds, to make sure that we are not being hoodwinked, as we 
suggested here earlier. I think that is the way we can put 
pressure on. If any is, we can vote the stock and vote the 
proxy, and we continue to do that and work together on it. I 
think we all have to work to get together to make it better.
    Senator Bayh. You can vote the stock, and you can also vote 
with your feet by withdrawing the money.
    Dr. Christopher. Absolutely.
    Senator Bayh. Might get their attention, too.
    Dr. Christopher. Right.
    Senator Bayh. Well, gentlemen, thank you.
    Let us express our appreciation to Bill and Keith. They are 
going to stay around, see if they can answer any questions from 
the audience.
    Thank you.
    Senator Bayh. If we could have Chuck and Elisse come up. 
Elisse, thank you. Chuck, thank you.
    All right, let us get to the next panel. We are very 
fortunate to have Chuck and Elisse with us. Just a couple of 
words about both of them, and then we are going to get right to 
their statements.
    Mr. Leven, is that how I pronounce it, Chuck? Leven?
    Mr. Leven. Right.
    Senator Bayh [continuing]. Was elected by the board of 
directors of the AARP to serve as Vice-President, Secretary-
Treasurer. He also serves as chairman of the board's audit and 
finance committee.
    Prior to his retirement in 1994, Mr. Leven served in a 
variety of positions in retail management, including senior 
vice-president of operations for Saks Fifth Avenue and 
Abraham's and Strauss.
    Mr. Leven will discuss the importance of the recently 
enacted Corporate and Auditing Accountability Act, as well as 
what seniors have to do to protect their own financial 
interests.
    Let us please welcome Chuck Leven.

   STATEMENT OF CHUCK LEVEN, MEMBER, AARP BOARD OF DIRECTORS

    Mr. Leven. Thank you very much. Good afternoon, Senator 
Bayh. My name is Chuck Leven. I am a member of AARP's board of 
directors.
    On Seniors Day at the Indiana State Fair, it is good to see 
so many AARP members in the audience. [Applause.]
    Go, team!
    I appreciate this opportunity to offer AARP's assessment of 
the importance of the recently enacted Accounting Reform and 
Corporate Responsibility Act to the retirement security of 
older Americans.
    We believe this new law has the potential to become one of 
the most important anticorruption reforms since the U.S. 
Securities & Exchange Commission was created during the Great 
Depression. While accounting is not the subject of many movies, 
it did provide the legal evidence on which Al Capone was sent 
to Federal prison during that era. As the saying goes, ``The 
devil is in the details.''
    Since then the stock market has developed in ways that make 
an increasing number the Americans feel they would be treated 
fairly. The trust encouraged more and more middle-income 
individuals and families to invest their savings in personal 
investments and through their pension funds. Investors who are 
65 or older own approximately 17 percent of all mutual funds. 
Income from investments has become increasingly important to 
older Americans.
    According to the Census Bureau, more than 28 million 
Americans over age 65 rely to some extent on investment income 
to meet their living expenses. Three quarters of older persons 
depend on investment income to meet 25 percent or more of their 
total income.
    What Americans are demanding again today is stock markets 
that will provide them with equal access to the best 
information that is available so they or their money managers 
can fairly consider their investment choices and risks. Like 
the economy, we all know the stock markets can go down as well 
as up. So it has been the last couple of years.
    One well-known measure of our stock market, the S&P 500 
stock index, has gone down approximately 40 percent since the 
year 2000. The cumulative effect of the market's decline is to 
the real and widely felt loss to personal income and savings. 
That loss has been estimated to be well over $5 trillion.
    In addition, mounting reports of accounting irregularities, 
corporate mismanagement, and bankruptcies have led to a loss of 
trust in corporate America, and a deepening mistrust of the 
stock markets. There has been a growing sense that only 
corporate and market-based insiders know how companies are 
really doing.
    This crisis of investor confidence developed in spite of 
the fact that most Federal and state securities statutes and 
regulations have as their primary goal the promotion of fair 
and full disclosure of corporate and stock market information.
    A consensus has emerged that our system of stock market 
regulation has been weakened by widespread conflict of 
interests, outdated regulatory checks and safeguards, and 
insufficient resources. There is also concern that company 
shareholders have been poorly protected because of inadequate 
oversight of corporate management.
    The Enron Corporation's bankruptcy, which was filed in 
December 2001, sounded the alarm and spawned many 
investigations by the SEC and the U.S. Department of Justice 
and by the Congress. These investigations indicated to us that 
the stronger legislative medicine proposed by Senator Sarbanes 
of Maryland and eventually enacted with your help, Senator 
Bayh, was necessary to renew public trust in our stock markets.
    For older Americans, whose retirement incomes are dependent 
on investments in our markets, the reforms put into effect as 
part of the Accounting Reform and Corporate Responsibility Act 
will bring critically important reassurance. The new act does 
strengthen criminal and civil penalties for fraudulent 
misbehavior by top corporate officials.
    But perhaps more importantly in the longer term, the act 
establishes a new set of legally enforceable regulatory 
guidelines to make the accounting profession, corporate boards 
of directors, outside attorneys, stock analysts, rating 
agencies, and the SEC, more responsible for recognizing and 
preventing the wave of scandals we have recently seen.
    But in the end reputable people will have to be selected to 
make the new system work. Above all, we must have qualified 
professional, dedicated to enforcement of this new law. 
Accurate corporate and market information is important, not 
just to individual investors and pension fund participants. 
Whether or not we have invested money in the stock market 
ourselves, we want those who do to put it into businesses that 
will make the best use of it to create jobs, to make and do the 
things that we need at the lowest possible prices, and for 
healthy businesses and their employees to pay their fair share 
of taxes, to support important programs that we all benefit 
from, like Social Security and Medicare. We can perhaps 
appreciate more today how important these programs are.
    But it is also clear that ordinary investors will have to 
do more to protect their own financial interests. As a second 
act, Senator Bayh, I have attached to my written statement a 
copy of AARP's Investing Basics of the Stock Market. I believe 
copies of this document are available as handouts for today's 
audience.
    One final comment: We believe that Congress has unfinished 
business. Particularly important to AARP is pending legislation 
to upgrade Federal pension law to better protect workers' 
retirement savings, particularly from the devastation of losses 
in employers' stock holdings. Of the 21 largest corporate 
bankruptcies filed since 1980, New Generation Research, Inc. 
reports that nine of those bankruptcies occurred within the 
last 19 months. Among these filings are the two largest 
corporate bankruptcies in American history: Enron and Worldcom, 
both of which declared themselves insolvent within the last 9 
months. Thousands of retirees and thousands more whose 
retirement depended on the pension plans provided by these 
corporations have been victimized, with tragic personal 
consequences. More still needs to be done.
    The Senate is scheduled to take up pension reform this 
fall. We believe the law should be amended to provide greater 
choice in pension investment, to ensure that employees are not 
loaded up with employers' stock preference. In addition, we 
should ensure that pensioners get quality investment advice, 
given by professionals who do not have a conflict of interest 
in the advice they have given.
    Last, we should make sure that pensioners have an effective 
means to recover money lost due to fraud or wrongdoing.
    Senator Bayh, you are an active and important member of 
several different Senate committees that have acted on these 
problems. We appreciate your efforts to help enact the 
Corporate Responsibility Act, and look forward to working with 
you on the unfinished parts of the reform agenda, particularly 
pension reform.
    With these observations I will close. I will be happy to 
answer any questions.
    [The prepared statement of Mr. Leven follows:]

    [GRAPHIC] [TIFF OMITTED] 82917.010
    
    [GRAPHIC] [TIFF OMITTED] 82917.011
    
    [GRAPHIC] [TIFF OMITTED] 82917.012
    
    [GRAPHIC] [TIFF OMITTED] 82917.013
    
    [GRAPHIC] [TIFF OMITTED] 82917.014
    
    Senator Bayh. Chuck, thank you very, very much.
    I want to again thank AARP for the leadership role that you 
have played both in the accounting and corporate responsibility 
arena, and I am glad you mentioned the pension issue. That is 
going to be one of the top priorities when we return in 
September, and I am hopeful that we will be able to enact those 
meaningful reforms that you mentioned and have the President 
sign it into law yet this year. It would be a tragedy to have 
any other companies go under before we have had an opportunity 
here to protect those employees and retirees.
    Thank you.
    Elisse Walter is with us. She is the Executive Vice-
President for regulatory policy and programs of the NASD. She 
oversees operating, legal, and policy activities at the NASD.
    The NASD's core mission is to regulate the securities 
industry in order to protect investors and to insure market 
integrity. I think, Elisse, you are going to discuss with us 
investment-protection issues, and the ways in which the NASD 
serves to help investors.
    So we thank you for your time.
    By the way, both Elisse and Chuck are from New York State; 
we are grateful to have them with us. I have encouraged both of 
them to spend lots of money while they are here in Indiana. We 
appreciate you both.
    Folks, let us give Elisse a warm welcome.
    Thank you for joining us, Elisse.

     STATEMENT OF ELISSE WALTER, EXECUTIVE VICE PRESIDENT, 
              REGULATORY POLICY AND PROGRAMS, NASD

    Ms. Walter. Thank you, Senator Bayh. Thank you for the 
mission of spending money; I am very good at that.
    On behalf of NASD I would like to thank you for the 
opportunity to be with you today at the State Fair and testify 
on investor and investment issues.
    I was vividly reminded, in listening to Mr. Taylor earlier, 
that today's investor lives not on Wall Street but on Main 
Street. There are more than 84 million Americans and countless 
others in other countries who now participate in the securities 
markets, either directly or through mutual funds and pension 
plans. It is obvious that for a lot of them--in fact, for a lot 
of us--if we look at our 401(k) account balances, our mutual 
fund account balances, and our retirement plan balances these 
days, the result is really quite disheartening.
    As a result, I think today, perhaps more than ever in the 
recent past, there is a huge demand for information about 
investing and investments. As Senator Bayh said in other words 
earlier, sound information is simply your best tool to protect 
yourself.
    To meet this need, NASD is really uniquely situated to 
bring individual investors fair information. I cannot tell you 
where to put your money, but I can explain to you how--or at 
least some of the ways in which you can learn more before you 
invest.
    Under the leadership of Congress, NASD has been working to 
protect investors and to make the markets more transparent and 
fair in these times, which certainly have challenged investors' 
confidence. For example, we recently adopted tough new rules 
which force research analysts to be more independent, and to 
make their recommendations more useful for all investors.
    Senator Bayh, I would like to add my congratulations to 
those you have already heard today at your efforts in passing 
the new accounting reform bill. It is simply critical that 
investors be able to rely on the financial information that 
they are provided, and I certainly believe that the new system 
of regulation that the bill has enacted will have a very 
significant impact on investing in this country.
    In particular I would like to highlight the new accounting 
oversight board, which is going to bring a system of private-
sector regulation like that that NASD provides in the 
securities industry to the accounting profession.
    NASD as an organization first came into being more that 60 
years ago as part of the response to the Great Depression and 
the market crash of 1929. The Federal Government gave this 
private-sector body the authority to be a regulator for the 
securities industry, with the mission of protecting investors. 
Now, more than 60 years later, we have over 2000 employees and 
an annual budget of about $400 million. Those people and that 
money is devoted to the protection of investors. Because we are 
a private-sector regulator, like the new accounting board, that 
extra layer of protection does not cost the taxpayers a dime.
    Under Federal law, every securities firm that does business 
with the public must be a member of the NASD. We regulate about 
5500 brokerage firms, 90 thousand branch offices, and almost 
seven hundred thousand stockbrokers. Our mission includes 
writing rules for the firms and their employees, checking up to 
see if they are following the rules, and taking strong action 
against them if they do not. Our standards are not merely best 
practices or simply examples of what good behavior should be; 
instead, they are enforceable rules. We vigilantly monitor our 
firms and their staffs, and if they break our rules they 
experience enforcement with teeth.
    One example, this year alone, acting jointly with 
Securities & Exchange Commission we brought a case and imposed 
sanctions of $100 million against a major investment banking 
firm for giving its favored customers special access to 
profitable stock deals when companies go public. Of course for 
a price.
    NASD is doing everything that it can to ensure that our 
country's financial markets remain strong. Healthy securities 
markets attract investors, generate capital, create jobs, and 
spur economic growth. But they can only fulfill that promise if 
they are fair. On average, we bring more than one thousand new 
disciplinary actions every year, and we sanction our firms and 
their staffs with actions ranging from censures to fines to 
suspensions from being in the business, to permanent expulsion 
from the securities industry. Again, there is an analog here to 
certain provisions in the new accounting reform bill.
    We add to our enforcement efforts by referring cases to the 
SEC, to the state authorities, and to criminal authorities. 
This is critical, catching people who violate the law and 
sanctioning them. It is critical both to individuals, and it is 
also critical to the markets and the investing community as a 
whole, including most of the people in the securities industry, 
who are law-abiding and play by the rules.
    These people undermine investors' confidence. We can help 
by going after fraud and conflicts of interest. But at the end 
of the day regulators can never eliminate risk in the markets 
or do the homework that we as investors all need to do for 
ourselves. What we can do, though, is to help investors do 
their homework. I would like to highlight today two of the 
important programs we have that do just that, our investor 
education program and our public disclosure program.
    Through our website and publications, we provide a range of 
information, tools, and resources. One of them is included in 
the folder you have today, that investors can use to educate 
themselves about all that the securities industry offers to 
them. We are expanding the breadth and depth of those 
offerings, and reaching out to new audiences, including 
retirees.
    We have also created a Targeted Investor Protection, or 
what we call a TIP group, which is made up of experts from all 
our different departments, and their mission is to stop problem 
trends early, so that we can provide timely investor alerts to 
all of you, to help you steer clear of the problems rather than 
being caught short by them after you have already become 
involved. We have issued alerts on topics such as mutual funds 
and variable annuities, among others.
    A critical first step is involved in our public disclosure 
program, and that is the question of, with whom do you invest? 
When you pick a stockbroker you should find you should find who 
that person is. We have a system that will enable you to find 
out about that person, what he or she has done, and what their 
disciplinary history is, and you can access that public 
disclosure program through our website at WWW.NASD.COM or 
through a toll-free telephone number.
    Investors can also contact their state securities 
department to obtain information about brokers and to lodge 
complaints. In Indiana Brad Skolnik, who is here with us today, 
is the Securities Commissioner, who works hard to protect 
Hoosier investors. We work closely at the NASD with the States, 
including Brad, on the full range of issues relating to 
licensing and enforcement.
    Our goal is not only to be the preeminent source of 
information for investors but also, first and foremost, to 
protect them. Despite our best efforts, at times people get 
hurt.
    So what recourse do investors have? The first line of 
recourse is really for an investor to go back to the investment 
firm with whom he or she invests and submit a complaint to 
them, because the problem may be able to be taken care of at 
the firm itself. If investors are not satisfied with that, or 
if they choose instead to come to us first, they can lodge 
complaints with us, or with their state regulators, or with the 
Securities & Exchange Commission.
    For us, investigating investor complaints is a large part 
of our job. There are thousands that we look at every year. You 
can submit a complaint to us either electronically or by letter 
through one of our district offices. With us today as well is 
Carla Romano, who heads our Chicago district office, and whose 
territory includes the great State of Indiana.
    If none of those avenues work, investors should also know 
that NASD runs the largest and most effective securities 
dispute resolution forum in the country. We handle 90 percent 
of securities mediations and arbitrations. You can get more 
information about that as well on our website and in our 
publications.
    To close, the entire financial industry depends on investor 
confidence. Our job, our complete and full mission, is to try 
to bring integrity to the markets and to protect investors. We 
have all been reminded all too recently that lasting confidence 
has to be based on that solid, good information and sound 
regulation.
    Senator Bayh, I would urge your constituents to look to 
NASD for answers, information, and help.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Ms. Walter follows:]
    [GRAPHIC] [TIFF OMITTED] 82917.015
    
    [GRAPHIC] [TIFF OMITTED] 82917.016
    
    [GRAPHIC] [TIFF OMITTED] 82917.017
    
    [GRAPHIC] [TIFF OMITTED] 82917.018
    
    [GRAPHIC] [TIFF OMITTED] 82917.019
    
    [GRAPHIC] [TIFF OMITTED] 82917.020
    
    Senator Bayh. Thank you very much, Elisse. We appreciate 
your being here and your comments.
    In addition to her insightful comments, Elisse is also a 
mindreader: I was just handed a piece of paper, informing me 
that Brad Skolnik is with us. I wanted to acknowledge Indiana's 
Securities Commissioner, one of the top enforcement officials 
in the State of Indiana to root out securities fraud. So, Brad, 
it is good of you to come. Thank you. Thank you for being with 
us.
    Just a couple quick questions, Chuck, for you and Elisse, 
and then we will take questions from members of the audience 
for either this panel or members of the first panel.
    First, Chuck, Keith mentioned, on the first panel, the 
privatization of Social Security. I do not want to ask for 
AARP's official position, but do you have an opinion about what 
position investors would be in, as you know, many of our 
seniors do not have pensions; many of them have not been able 
to put away sufficient retirement funds. What kind of condition 
would they be in if they had been invested in the market here 
the last few years?
    Mr. Leven. Well, let us go back to, first of all, Social 
Security.
    Roughly 60 percent of the people who collect Social 
Security depend upon it almost entirely for their income.
    So if you took that away, you would then have a huge 
increase in poverty-level people in the senior citizen group.
    Senator Bayh. So, taking Keith as an example, he lost two 
thirds of his investment savings. So, as 60 percent of our 
retirees, all they can rely on is Social Security; if they lost 
two thirds of their Social Security, they would be down to only 
a third.
    Mr. Leven. Complete disaster.
    I will tell you AARP's position, since you were kind enough 
not to ask me. That is very simply this: We believe that Social 
Security is an insurance program. It is not meant to be an 
investment program. It is simple. An insurance program is one 
of the legs of a triangle. It must be retained pretty much as 
it is. Now, if the Congress in its wisdom wants to go beyond 
that and allow additional monies for private investment, that 
is all right.
    Senator Bayh. Supplemental, but not----
    Mr. Leven. Supplemental; right. [Applause.]
    But Social Security must be kept intact. That is our strong 
position, and we will continue to stand with that.
    Senator Bayh. Thank you, Chuck.
    My second question for you would be, included in the 
handout that we provided to everyone is Investing Basics for 
the Stock Market. Could you share with us a few of the things 
that are on there for those who have not had a chance to look 
at it?
    Mr. Leven. I think that some of the most important things 
you ought to know is: No. 1, develop your own financial plan. 
What do you really need when you are going to retire? How much 
money are you going to need to live on? How much cash should 
you have?
    We recommend typically 6 months' worth of your expenses 
should not be in anything but a cash or some asset that could 
be quickly converted if needed.
    Senator Bayh. What percentage is that, again?
    Mr. Leven. I would say 6 months' worth of your living 
expenses.
    Senator Bayh. Six months' worth.
    Mr. Leven. Yes, to make it--if you can do that. Not 
everyone can, unfortunately.
    We think that you should have a mix. Diversification is the 
key word: Diversify, diversify, diversify.
    Fixed assets, fixed-income assets, and then of course 
equities.
    I will tell you that, as with the teachers union, AARP has 
its own personal investment program. It has been largely in 
fixed-income, but we have now converted to some degree, because 
you have to change as the circumstances change. So you do need 
some financial advice, and you need it from independent 
advisors that you can get. That is very important. Not from an 
advisor who is paid by the company that the stock is suggested; 
that would obviously be not the thing to do.
    I think the other thing you have to remember is that you 
make sure that you know what funds are insured by the FDIC and 
what are not. If you buy a mutual fund through a bank, it is 
not insured. The only thing that is insured is your cash 
investments, basically. I think that is important to know.
    The other things you should know, in here we have a whole 
group of agencies you can contact--no charge to do this--and 
they will give you advice. There is plenty of advice out there. 
The thing you have to do is educate yourself. That is the 
responsibility of the individual.
    Senator Bayh. Thank you.
    A lot of great information in here from the AARP, and I 
would commend it to everyone here when you have a few minutes 
at home, tonight or over the weekend. It really is good advice.
    So, Chuck, we appreciate your making that available to us. 
Elisse, a couple of questions for you.
    You have mentioned that very often the first way to resolve 
a conflict is by contacting the investment company with whom 
you have a complaint, and if that does not work, then they can 
contact the NASD.
    Just very briefly, could you--for someone I knew, if they 
have a complaint with an investment firm, could you walk us 
through, how would they go about filing such a complaint with 
them, or how would they go about contacting the NASD if they 
did not get satisfaction from their investment company?
    Ms. Walter. Certainly.
    The people that you want to talk to at the brokerage firm 
generally are the compliance department, because their job 
within the brokerage firm is to take care of exactly these 
kinds of issues. They are essentially an internal watchdog, so 
that if you are not getting satisfaction from the person who is 
in charge of dealing with your money from your individual 
broker, you should ask to be transferred to the compliance 
department, and ask for the address of the compliance 
department, which is generally located in the headquarters of 
the firm.
    Of course, when you have difficulty getting that 
information, that may be a sign that you are not going to get 
really good satisfaction.
    As I said, to contact the NASD you can go to any of our 
district offices. Carla Romano's district office--and if Carla 
will raise her hand--is the one that is closest to you. The 
address of all those district offices I believe is in the 
publication that you have in your yellow folder. Those 
addresses are, of course, also on our website. Our website we 
keep trying to expand as much as possible to provide more and 
more and more useful information, not just to professionals in 
the investment community but to investors as well.
    I would say, just ask you for one other favor, is that if 
you visit our website and there are things that you think that 
would be helpful to you that are not there, we would like to 
hear that. Because expanding our investor education efforts is 
something the NASD really wants to do and be more aggressive at 
doing.
    Senator Bayh. Thank you, Elisse.
    My final question for you, and then we will get to the 
audience's questions--something that Chuck mentioned, and I 
think NASD has taken some action on it already--and that is to 
promote analyst and advisor independence, where you get these 
conflicts of interest where somebody who is advising one of our 
seniors about how to invest their money may have, you know, 
financial interest in offering a particular kind of advice. Can 
you share with us the steps you have taken in trying to promote 
analyst independence?
    Ms. Walter. We have adopted a set of rules, and we have a 
little bit more work to do under the new legislation, but those 
rules really try to accomplish essentially three different 
things:
    First, they try to improve disclosure about the conflicts 
that analysts have, because one has to face the fact that, if 
an analyst is working for a brokerage firm, that is not the 
same thing as having an analyst work for you.
    So people need to understand the position people occupy, 
they need to understand certain things about stock ownership. 
So there are a lot of conditions in these rules about 
disclosure.
    There are also certain provisions in the rules that 
prohibit conduct where it was thought that the conflict really 
was so severe that it really just should not be allowed.
    Finally there are provisions, for example some charts that 
track stock price and reading some of the signs, to educate 
people about what research reports are all about.
    I think one of the most important aspects of the rule is to 
try to break some of the conflicts by trying to control the 
people who are able to give input into the compensation that 
research analysts get. Because if research analyst compensation 
is governed by people who are out there selling new stocks, 
then those analysts are obviously going to be more likely to 
support those stocks. So there are provisions in the rules that 
try to break that tie.
    Senator Bayh. Thank you, Elisse.
    Let us now get to the audience questions.
    I am going to ask David----
    David Beebe is with us. He is the Deputy Director for the 
Bureau of Aging and In-Home Services. He is going to be the 
moderator of the question session here. Keith and Bill I think 
are also still available.
    So let us collect the questions from anyone in the audience 
who has them, and we will answer to the best of our ability.
    David, how are you? Thank you for helping out today. I 
appreciate it.
    Also, before we get to our first question, I would like to 
ask everyone on my--I have really the benefit of having a lot 
of wonderful help from members of my own staff, who work for 
all of us. They do a great job. Catherine has been kind enough 
to sit behind us, close to here. Catherine, come on out of 
there. Sohini, raise your hand. Everybody who has helped us to 
put this together please raise your hand, because I would like 
to thank all the hard-working staff people here today for their 
help.
    Thank you very much.
    David, What is the first question? Who is it for?
    Mr. Beebe. It is a general question:
    Will penalties for fraud and related financial 
misrepresentations as designated in the bill signed by the 
President last week be retroactive for all the perfect debacles 
in the last year?
    Senator Bayh. Well, that is a good question.
    I think it is actually against the Constitution of the 
United States to have retroactive penalties. I think that the 
penalties that are in place are effective as of the time of the 
crime. But if there are ongoing violations or new violations 
that are uncovered, then the stiffer penalties would apply to 
them.
    I think that is the correct answer, is it not, Catherine?
    So it is actually against the Constitution to go back and 
increase the--to make something illegal that was legal at the 
time, or to increase a penalty on something, greater than it 
was at the time of the act. But going forward, the penalties 
will clearly get higher.
    I suspect that we may not have seen the end of some of 
these kind of disclosures, and so going forward we will 
definitely have stiffer penalties in terms of financial fines, 
and as Keith was pointing out, in terms of actual jail time.
    Mr. Beebe. This next question is related to that one:
    What will the bill passed by Congress on corporate 
responsibility really do to punish CEOs?
    Senator Bayh. Well, the financial penalties are higher; the 
jail time potentially is higher. There are going to be a whole 
host of things that--this business of using your company as a 
piggybank, taking out large loans, that kind of thing is going 
to be, in most cases, the vast majority of cases, prohibited. 
As I mentioned, if there is a situation where they cashed out 
at the top and then restate their financial results later, the 
profits from that kind of activity will have to be disgorged, 
returned to the company.
    So there are a whole host of ways in which the CEOs are 
required to personally attest to the accuracy of the financial 
statements. Then there are stiff penalties for knowing 
violation of those kinds of requirements.
    So there are a whole host of things that apply to CEOs, the 
CFOs, restrictions on the boards of directors for great 
independence there, and things of that nature.
    I suspect that there--this is some pretty aggressive 
action, but I suspect it is not the final action that is going 
to be taken. We need to see how the SEC responds; we need to 
see how the courts interpret the law, and then continue to come 
back and press, and press, and press to plug other loopholes if 
they be proven to exist. But those are some of the things, in 
addition to others, that are included in the law that apply 
directly to CEOs.
    Is there anything else? Chuck, would you or Elisse like to 
add to----
    Mr. Leven. I think what you said is absolutely right: This 
is not an absolute cure. There are going to be other things 
that come up; you are going to have to keep an alert eye. But 
most importantly, the men and women who are put on this 
supervisory board are going to have to be determined and 
convinced that it is the right thing to do and enforce the 
regulations; otherwise it is going to be meaningless.
    Senator Bayh. Chuck raises a good point. This does not 
apply specifically to the CEOs, but up until now the accounting 
profession, the auditors who actually were supposed to be the 
independent watchdogs to go in to look over the company's books 
to make sure that they were accurate, the accounting profession 
basically regulated itself. Now the body that is going to 
oversee the independent watchdogs, the accounting profession, 
will be independent. It is going to be funded separate from the 
accounting industry. Those who serve on it cannot be actively 
employed in the accounting industry. So there is going to be 
much greater independence and objectivity on the part of the 
independent outside auditors than has previously been the case.
    There is also going to be substantial additional resources 
for the SEC, the enforcement activities of the SEC. There are 
so many financial filings today, I am under the impression, at 
least, that the SEC simply does not have the wherewithal to 
review a lot of them on a timely basis, and so we are going to 
able to have much more timely review and enforcement actions on 
the part of the SEC. So that is something that will be very 
helpful here as well.
    Mr. Beebe. This next question is kind of a combination of 
several that people asked:
    How do you get help for seniors who, by the time they pay 
their bills, have nothing left for food and medicine they need? 
Several people are interested in what you are doing to help 
seniors obtain those medications.
    Senator Bayh. First of all I want to correct something that 
I said that is hopefully the most serious error I will make 
today: Mr. Beebe's name is Doug, not David.
    So just for the record and our reporter, here, Doug, we are 
grateful to you for all of your help.
    Elisse, do you want to say what are some of the things that 
someone that feels they have been defrauded can do to help put 
things back together and they have really lost their life 
savings?
    Ms. Walter. Well, one of the systems that works if you are 
dealing with the securities industry is the arbitration and 
mediation system, which is a cheaper, faster way to try to get 
your money back. We try, when we can, if there are specific 
individuals that are involved in cases that we bring, we target 
the funds to be returned to the people from whom they were 
taken. Of course all of those things take time. In other 
aspects the court system has to be used rather than arbitration 
or mediation. But there are a variety of dispute-resolution 
mechanisms that you can turn to, at least with respect to the 
securities industry.
    Senator Bayh. Doug, we operate mostly through deterrence 
and using the law enforcement mechanism. You know, clearly we 
would like to get some of this money back for investors through 
the companies. There will be shareholder lawsuits in most of 
these cases, I am sure, as well, that perhaps can regain some 
of the money for the individuals.
    If the question was, though, was Congress going to 
appropriate actual tax dollars to compensate people, that has 
not been contemplated yet. There are some things to try and 
insure the integrity of pension funds, but in terms of actually 
taking tax dollars for repaying investors for the money that 
has been lost, that really has not been done in the past, and 
has not been done to date. So perhaps in the future there are 
some things that could be considered, but if that was the gist 
of the question, that has been not been done.
    Mr. Beebe. There was a side question about help with 
obtaining prescription medications in general, unrelated to the 
fraud question.
    Senator Bayh. OK. Well, why I do not get into that--Why do 
not we deal with the subject at hand here, and I will be happy 
to talk about the price of----
    Well, let me give you 2 minutes on that.
    There is a big debate in Congress about the price of 
pharmaceuticals for all Americans, but for seniors in 
particular. There are a number of Medicare drug benefit bills 
that are being debated, that have been voted on, that have not 
been passed yet. It is my hope that we can at least cover 
people who have suffered catastrophic drug bills or people with 
low incomes, and also get some further discounts for those who 
have not suffered catastrophic losses or are on low income, so 
that we will bring the price of pharmaceutical prescriptions 
down.
    In the Senate we did pass a bill that will expedite the 
process of bringing generic drugs to the market, which is one 
way to get prices down. But right now the House has one 
version, the Senate has another version, the President has 
other ideas. I am hopeful that by the end of this year we will 
be able to get this passed and bring the price of these 
pharmaceuticals down for all Americans, but for seniors in 
particular. There are some of us who think that this should be 
a part of Medicare. I believe that position has been endorsed 
by the AARP. I do not want to speak for Chuck and his 
organization.
    We are off into the pharmaceutical or benefit debate here, 
Chuck. I believe AARP has endorsed, or at least your preference 
is to have the benefit provided as a part of Medicare. We have 
voted on that in the Senate. We actually had 52 votes in favor 
of that. Unfortunately, in the Senate it takes 60 votes to get 
something passed.
    As a fallback, we then tried to at least cover people who 
had catastrophic losses, or who were in lower-income groups. 
That also did not get 60 votes.
    But I think, my direct answer to your question is, although 
it has not been accomplished yet, I think we are going to be 
voting this again in September, and I would hope, and 
personally will support very strongly, trying to get something 
done to bring these prices down yet this year. I am hopeful in 
that regard, but it is tough because there are so many 
different ways to go about it, it is hard to get people to come 
together on that issue.
    Chuck, anything you'd like to add, about a drug benefit 
through Medicare?
    Mr. Leven. We believe that drug--prescription drugs should 
be a defined benefit within Medicare. We do not think it should 
be income-based, because Medicare is not an income-based 
program; it is not a welfare program, and we think that that is 
the way it should continue.
    Consequently, that is the position that we most advocate, 
and will continue to advocate, hopefully with great enthusiasm, 
in the coming months.
    Senator Bayh. I support the program that is endorsed by the 
AARP to provide a universal drug benefit just as a part of 
Medicare and the reason I do is that, when Medicare was first 
enacted back in 19----
    It is very interesting: Do you know who got the first 
Medicare card?
    Lyndon Johnson went to Independence, MO. Harry and Bess 
Truman received the first two Medicare cards.
    Back then, pharmaceutical costs were a very small part of 
health bills. But today, of course, they are a very major part 
of health bills. So it makes sense, as Chuck was saying, to 
include a drug benefit as a part of Medicare: You are on 
Medicare, you receive it, everybody on Medicare receives it.
    Unfortunately, there are some who are just adamantly 
opposed to that, for a number of reasons that I will not bother 
to get into right now. But that is my position, it is AARP's 
position, and I hope that we will ultimately be successful in 
having that prevail.
    Doug is giving me this. I am going to stay around for a 
while. Those of you who would like to talk to me, I will be 
right down front here.
    I would like to thank our panelists once again; I would 
like to thank all of you in the audience for your patience; 
everyone at the Indiana State Fair--when I say ``Doug'', you.
    Ladies and gentlemen, I look forward to bringing this 
hearing back again next year to the Indiana State Fair, and I 
want to thank all of you for the honor of representing you in 
the U.S. Senate.
    The hearing is now officially adjourned.
    [Whereupon, at 3:32 p.m., the committee was adjourned.]

                                <greek-d>



</pre></body></html>
